CERTIFICATE OF WORD COUN.
NO. TBD
Arthur Edward Ezor,
Petitioner (s),
v.
Superior Court of Los Angeles County,
Respondents).

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Arthur Edward Ezor
Petition for Extraordinary Writ of Mandamus contains 900 words, including the parts of the
brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas'DeDeus
September 11, 2019

SCP Tracking: Ezor-305 S. Hudson Avenue-Cover White

